April 23, 2021
Mx. Danielle L. Goldstein
The Office of the Los Angeles City Attorney
200 N. Spring Street, 14th Floor
Los Angeles, California
(213) 978-1868

90012
danielle.goldstein@lacity.org

Joshua S. Lipshutz; Christopher D. Dusseault; Michele L. Maryott; Dhananjay S. Manthripragada;
Thomas F. Cochrane; Brian Yang; Thomas H. Dupree Jr.; Aaron Smith; Hon. William F. Highberger;
Clerk of Court, California Court of Appeal, Second District, Division 4; Appellate Coordinator, Office of the
Attorney General, Consumer Law Section; Margo Baxter, Los Angeles District Attorney's Office

